       Additional Copies

       To request copies of this report, contact Dennis L. Conway at (703) 604-9172
       (DSN 664-9172) or Hugh G. Cherry at (703) 604-9614 (DSN 664-9614).

       Suggestions for Audits

       To suggest ideas for or to request audits, contact Audit Followup and Technical
       Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and
       requests can also be mailed to:

                        ODIG-AUD (ATTN: AFTS Audit Suggestions)
                       Department of Defense Office of Inspector General
                              400 Army Navy Drive (Room 801)
                                  Arlington, VA 22202-4704




Acronyms

BRAC               Base Realignment and Closure
COBRA              Cost of Base Realignment Actions
DGT                Data Gathering Tool
DoD OIG            Department of Defense Office of Inspector General
DTRA               Defense Threat Reduction Agency
DWO                Defense-Wide Organization
ICP                Internal Control Plan
JCSG               Joint Cross Service Group
JPAT 7             Joint Process Action Team Criterion Number 7
N/A                Not Applicable
OSD                Office of the Secretary of Defense
               Department of Defense Office of Inspector General
Report No. D-2005-072                                                       May 10, 2005
   (Project No. D2004-D000LG-0074)

                Defense Threat Reduction Agency’s Data Call
                 Submissions and Internal Control Processes
                   for Base Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations,
based on the Base Realignment and Closure (BRAC) data calls, and Defense Threat
Reduction Agency (DTRA) management personnel should read this report. The report
discusses the adequacy, completeness, and integrity of the data provided by DTRA to
assist the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One–Policy,
Responsibilities, and Procedures,” April 16, 2003, which stated that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls: capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, Joint Process Action Team Criterion
Number 7, and scenario specific. The supplemental capacity, military value, Cost of
Base Realignment Actions, and Joint Process Action Team Criterion Number 7 data calls
are collectively known as the second data call. We issued two site memorandums for the
capacity analysis data call and one site memorandum for the second data call to
summarize the results of the sites reviewed. This report summarizes issues related to the
BRAC 2005 process used by DTRA.

The mission of DTRA is to provide quality tools and services to safeguard the United
States and its interests from the threat of weapons of mass destruction. DTRA has its
headquarters at Fort Belvoir, Virginia. Other significant elements are located at Kirtland
Air Force Base in Albuquerque, New Mexico, and the Department of Energy’s Nevada
Test Site in Mercury, Nevada.

Results. We evaluated the validity, integrity, and supporting documentation of all
BRAC 2005 data that DTRA submitted in response to the capacity analysis data call,
second data call, and scenario specific data call as of April 5, 2005. We also evaluated
compliance with the Office of the Secretary of Defense and DTRA internal control plans
at two DTRA locations.
DTRA provided BRAC 2005 data that were generally supported, complete, and accurate,
after corrections were made. In addition, DTRA properly incorporated and supplemented
the Office of the Secretary of Defense internal control plan into the DTRA internal
control plan. Although we identified control weaknesses with marking, controlling and
securing BRAC 2005 responses and supporting documentation, DTRA corrected those
control weaknesses as they were identified. Therefore, the identified weaknesses will not
materially impact the reliability and integrity of BRAC data submitted to the Office of
the Secretary of Defense BRAC Office.

Subsequent to our reviews, the Joint Process Action Team Criterion Number 7 group
requested that activities update some of their responses based upon new guidance. We
did not review the supporting documentation for the changed responses.

Management Comments. We provided a draft of this report on April 29, 2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                           ii
Table of Contents

Executive Summary                                                       i

Background                                                             1

Objectives                                                             3

Finding
     Defense Threat Reduction Agency BRAC 2005 Data Call Submissions
        and Internal Control Processes                                 4

Appendixes
     A. Scope and Methodology                                           8
         Management Control Program Review                             11
         Prior Coverage                                                12
     B. Report Distribution                                            13
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    Secretary of Defense must submit BRAC recommendations to the independent
    Commission by May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSGs)–Education and Training, Headquarters and
    Support Activities, Industrial, Intelligence, Medical, Supply and Storage, and
    Technical. The JCSGs address issues that affect common business-oriented
    support functions, examine functions in the context of facilities, and develop
    realignment and closure recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that they
    reviewed.

    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its territories, was divided into the following data calls–
    capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), Joint Process Action Team Criterion Number 7
    (JPAT 7), and scenario specific. The supplemental capacity, military value,
    COBRA, and JPAT 7 data calls were collectively known as the second data call.
    The Services, Defense agencies, and Defense-Wide Organizations (DWOs) used
    either automated data collection tools or a manual process to collect data call
    responses. Each data call has a specific purpose as follows.

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered with the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investments) of proposed
               realignment and closure actions.



                                         1
                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios. 1

                    •    The scenario specific data call gathered data related to specific
                         scenario conditions for realignment or closure.

           Internal Control Plans. Before the BRAC data calls were released to the
           Services and Defense agencies, OSD required the Services and Defense agencies
           to prepare internal control plans (ICPs) that incorporated and supplemented the
           OSD ICP. The OSD ICP was issued in the Under Secretary of Defense for
           Acquisition, Technology, and Logistics’ memorandum “Transformation Through
           Base Realignment and Closure (BRAC 2005) Policy Memorandum One–Policy,
           Responsibilities, and Procedures,” April 16, 2003. To comply with that
           requirement, the Defense Threat Reduction Agency (DTRA) prepared an undated
           “Defense Threat Reduction Agency (DTRA) Internal Control Plan (ICP) for 2005
           Base Realignment and Closure (BRAC) Process.” For the capacity analysis data
           call, DTRA used a manual process to collect data, and for the second data call,
           DTRA used the Data Gathering Tool (DGT), a modified Microsoft Access tool
           developed for those not using an automated data collection tool.

           Department of Defense Office of Inspector General Responsibility. The
           “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
           Memorandum One–Policy, Responsibilities, and Procedures,” April 16, 2003,
           requires the Department of Defense Office of Inspector General (DoD OIG) to
           provide ICP development and implementation advice, review the accuracy of
           BRAC data, and evaluate the data certification processes. In addition, the
           memorandum requires DoD OIG personnel to assist the JCSGs and DoD
           Components as needed. This report summarizes issues related to the DTRA
           BRAC 2005 process.

           DTRA. The current mission of DTRA is to provide quality tools and services to
           safeguard the United States and its interests from the threat from weapons of mass
           destruction. DTRA is organized into directorates that perform these essential
           functions to accomplish its mission:

                    •    the Combat Support Directorate supports war-fighters with
                         vulnerability assessments, consequence management, and other
                         capabilities to counter and defeat weapons of mass destruction;

                    •    the Technology Development Directorate develops, tests, and fields
                         technologies as part of U.S. counterproliferation efforts;

                    •    the Chemical and Biological Defense Directorate manages and
                         integrates all DoD chemical and biological science and technology
                         efforts and performs program financial management functions;



1
    A description of one or more potential closure or realignment actions identified for formal analysis by
    either a JCSG or a Military Department.

                                                        2
                    •   the On-Site Inspection Directorate carries out treaty inspections to
                        ensure that weapons of mass destruction are being stored, protected,
                        and dismantled as agreed upon in treaties; and

                    •   the Cooperative Threat Reduction Directorate implements DoD
                        responsibilities under the Cooperative Threat Reduction Program. 2

           The DTRA Headquarters, located at Fort Belvoir, Virginia, provides
           administrative support for each of the operational directorates discussed above.
           Significant elements of the DTRA Technology Development Directorate and the
           Combat Support Directorate are located at Kirtland Air Force Base, in
           Albuquerque, New Mexico. The Technology Development Directorate also
           performs research and development at the Department of Energy’s Nevada Test
           Site, in Mercury, Nevada.


Objectives
           The overall objective of the audit was to evaluate the validity, integrity, and
           supporting documentation of data that DTRA collected and submitted for the
           BRAC 2005 process. In addition, we evaluated whether DTRA complied with
           the OSD and DTRA ICPs. This report is one in a series of reports on data call
           submissions and internal control processes for BRAC 2005. See Appendix A for
           a discussion of the scope and methodology and prior coverage related to the audit
           objectives.




2
    The mission of the Cooperative Threat Reduction Program is to prevent the proliferation of weapons of
    mass destruction and related materials, technologies, and expertise from former Soviet Union states.

                                                      3
                   Defense Threat Reduction Agency BRAC
                   2005 Data Call Submissions and Internal
                   Control Processes
                   DTRA BRAC 2005 data were generally supported, complete, and
                   accurate, after corrections were made as a result of our site visits.
                   However, the responses to capacity analysis data call questions 363, 364,
                   690, and 696 were only partially supported because DTRA did not
                   maintain records supporting the responses. DTRA properly incorporated
                   and supplemented the OSD ICP management controls into the DTRA ICP.
                   Also, DTRA site data collection procedures generally complied with
                   applicable ICPs. Although we identified some non-compliance issues, the
                   weaknesses identified should not impact the reliability and integrity of the
                   data submitted to the OSD BRAC Office.


DTRA BRAC 2005 Data Call Submissions
           DTRA reported BRAC 2005 data that were generally supported, complete, and
           accurate, after making corrections. At DTRA, we evaluated the validity and
           integrity of the documentation used to support responses to data call questions.
           Specifically, we compared responses to supporting documentation and reviewed
           Not Applicable (N/A) responses to determine whether the responses were
           reasonable. We did not verify whether the responses that we evaluated matched
           those recorded in the OSD BRAC database for DTRA.

           Capacity Analysis Data Call. As a result of our reviews, DTRA provided
           reasonable responses and adequate supporting documentation for the capacity
           analysis data call. The OSD BRAC Office sent DTRA 753 capacity analysis data
           call questions. We reviewed all questions and agreed with the DTRA
           classification of 669 questions as being N/A to DTRA. Of the 84 questions
           applicable to DTRA, the DTRA trusted agent 3 assigned responsibility for
           8 questions to the Defense Nuclear Weapons School, 4 in Albuquerque, New
           Mexico. The remaining 76 questions were sent to selected field locations or were
           assigned to DTRA Headquarters personnel. We evaluated the responses and
           documentation supporting the responses for these 84 questions assigned to
           DTRA. (See Table 1 in Appendix A for a list of sites visited and questions
           reviewed.)

           As a result of our review, we initially determined that 44 of the 84 capacity
           analysis data call responses were adequate, and 40 responses were inaccurate or
           lacked the proper support. We conducted audit work on the capacity analysis data
3
    The DTRA ICP designated a trusted agent to further assign responsibility within DTRA for responding to
    specific BRAC questions and to review and approve the accuracy of the responses prior to submission of
    certified responses to the OSD BRAC Office.
4
    The Defense Nuclear Weapons School, a component of the DTRA Combat Support Directorate, provides
    nuclear weapons core competencies and chemical, biological, radiological, nuclear, and high explosive
    response training to personnel from DoD, other Federal and State agencies, and National Laboratories.

                                                     4
           call between February 17, 2004 and May 10, 2004, and issued two site
           memorandums. We issued one site memorandum covering the capacity analysis
           questions answered by the Defense Nuclear Weapons School on March 25, 2004,
           and another site memorandum on the DTRA consolidated capacity analysis data
           call on May 13, 2004. We continued, through April 5, 2005, to review DTRA
           work on revising responses and adding supporting documentation. We were able
           to verify that DTRA had adequately revised responses and located supporting
           documentation for 36 of the 40 capacity analysis questions. We could not verify
           the accuracy or completeness of responses to question numbers 363, 364, and 696
           because DTRA did not keep documentation to support portions of those
           questions. Also, the response to question number 690 was unsupported because
           DTRA did not maintain educational records on contractor employees. We
           consider these four unsupported responses to be immaterial in relation to the total
           number of capacity analysis data call responses that DTRA did adequately
           support.

           Second Data Call. DTRA provided responses for the second data call that were
           generally accurate, reasonable, and adequately supported, after corrections were
           made. For the second data call, DTRA provided responses to 118 questions
           (2 COBRA questions, 20 JPAT 7 questions, and 96 JCSG-targeted questions).
           We reviewed 27 questions that DTRA classified as N/A, and agreed with DTRA
           that the N/A responses were appropriate. The DTRA trusted agent assigned
           responsibility for responding to all or parts of 91 of the 118 second data call
           questions to DTRA Headquarters; the DTRA Test Division of the Technology
           Development Directorate, in Albuquerque, New Mexico; and to the DTRA
           operations at the Department of Energy’s Nevada Test Site.

           Initially, we found that 35 of 91 responses to the second data call questions had
           inadequate support or inaccurate responses. However, during our follow-up site
           visits, we found that DTRA had revised its responses or provided additional
           supporting documentation, which corrected 34 of 35 responses. We could not
           verify the response to Headquarters and Support Activities JCSG military value
           question number 1907 5 because we were unable to validate the steps taken to
           generate the response.

           Subsequent to our visits, the JPAT 7 group requested activities, to include DTRA
           activities, to update some of their responses based upon new guidance. We did
           not review the supporting documentation for the changed responses to JPAT 7
           questions.

           Scenario Specific Data Call. DTRA’s responses to scenario specific data call
           questions were complete, reasonable, and generally supported. The OSD BRAC
           Office sent a total of nine scenarios (eight Technical scenarios and one Medical
           scenario) to DTRA. Specifically, those scenarios were Technical JCSG scenarios
           TECH-0002, TECH-0010, TECH-0018, TECH-0032, TECH-0038 through
           TECH-41, and Medical JCSG scenario MED-0028. The DTRA BRAC trusted
           agent assigned DTRA Headquarters and the DTRA Test Division of the
           Technology Development Directorate, in Albuquerque, New Mexico, with the

5
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington D.C. area.

                                                       5
     responsibility for responding to all or parts of those scenarios. As of
     April 5, 2005, we evaluated the responses and support for all nine scenarios sent
     to DTRA and found reasonable and supportable explanations for the methods
     used to respond to the scenarios.


Internal Control Processes
     The data collection procedures used by DTRA activities generally complied with
     applicable ICPs, and DTRA properly incorporated and supplemented the OSD
     ICP management controls into the DTRA ICP.

     We reviewed the data collection processes used for compliance with applicable
     ICPs. We reviewed DTRA processes used for controlling data access, collection,
     maintenance, and transmission for the capacity analysis data call, second data
     call, and the scenario specific data call at DTRA Headquarters and the DTRA
     operations in Albuquerque. Specifically, the reviews included whether officials
     working with BRAC data had completed nondisclosure agreements and properly
     marked all BRAC data. We also reviewed whether DTRA staff working with
     BRAC data secured all BRAC documents in locked containers, maintained logs
     showing each time information from the official BRAC file was accessed outside
     of the trusted agent’s office, and recorded all changes made to previously certified
     BRAC submissions.

     Completeness of DTRA ICP. The DTRA BRAC 2005 ICP provided a set of
     management controls designed to provide accountability for each sub-element of
     information used in the BRAC 2005 process. The DTRA ICP properly
     incorporated and supplemented the management control mechanisms to provide
     accountability and to safeguard BRAC 2005 information as identified in the OSD
     ICP. Although DTRA used the DGT for collecting and reporting BRAC data for
     the second data call questions and the scenarios, DTRA did not revise the ICP to
     reflect the changed procedures required to operate using the DGT.

     The DTRA ICP identified procedures for justifying changes made to data and
     information after it had been certified and sent to the OSD BRAC Office.
     Additionally, the DTRA ICP included directions on completing nondisclosure
     agreements and collecting, marking, safeguarding, and maintaining BRAC data.
     The DTRA ICP also designated the Chief, Project Integration as the BRAC
     trusted agent and the Director, Business Directorate as the certifier of all DTRA
     BRAC submissions. The separate and distinct responsibilities of the trusted
     agent, certifying authority, and responders are discussed in the DTRA ICP.

     Compliance with DTRA ICP. DTRA sites were generally compliant with the
     ICP procedures; however, for the capacity analysis and second data calls, we
     identified issues of noncompliance with the applicable ICPs. During the
     validation process, we noted the following:

         •   all data was not marked with the appropriate header or footer as required
             by the DTRA ICP;



                                          6
        •   BRAC documents located in the trusted agent’s private office were not
            always properly secured; and

        •   logs were not maintained when BRAC documents, data, and information
            were removed from the trusted agent’s office.

    The DTRA trusted agent corrected noted deficiencies and implemented stronger
    controls over the processes used to collect and safeguard BRAC data. Therefore,
    we consider the data, responses, and sources to be generally reasonable for use in
    the BRAC 2005 process.


Conclusion
    DTRA reported BRAC data that were generally supported, complete, and
    accurate, after corrections were made. Initially, we identified a substantial
    number of incorrect or unsupported responses to the capacity analysis and second
    data call questions. We discussed the results of our review with DTRA, and
    DTRA concurred with our findings. We also alerted the OSD BRAC Office of
    the results of our reviews in three separate site memorandums between
    March 25, 2004 and November 29, 2004. DTRA corrected the incorrect
    responses and provided adequate supporting documentation or generally
    reasonable responses, where no documentation was available. However, DTRA
    did not maintain records to fully support the responses provided to capacity
    analysis data call questions 363, 364, 690, and 696.

    We found that procedures used to provide supportable responses to capacity
    analysis data call, second data call, and the scenario specific data call questions
    generally complied with applicable ICPs. Furthermore, DTRA properly
    incorporated and supplemented the OSD ICP management controls into the
    DTRA ICP. Although we identified some weaknesses with the collection
    processes used, we determined that those internal control weaknesses should not
    materially impact the reliability or integrity of the DTRA BRAC 2005 data.
    Despite the problems identified, we consider the data, responses, and sources to
    be generally reasonable for use in the BRAC 2005 process.




                                         7
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of DTRA
   BRAC 2005 data. The evaluation included comparing responses to supporting
   documentation and reviewing N/A responses to determine whether the responses
   were reasonable. Questions had either an answer or an N/A response; an N/A
   response was for questions determined not to apply to a site.

   We ensured that the DTRA ICP properly incorporated and supplemented the
   requirements of the OSD ICP. We evaluated DTRA site data collection
   procedures to determine whether they were in compliance with DTRA ICP
   procedures for the proper handling and storage of BRAC 2005 data. In addition,
   we interviewed the personnel responsible for preparing and certifying the
   responses to the data calls. We did not verify whether the DTRA responses were
   in the OSD BRAC Database.

   The DTRA trusted agent served as the central collection point for all responses
   and supporting documentation from DTRA sites. Consequently, we performed
   the majority of our work at DTRA Headquarters. However, we also accompanied
   the DTRA BRAC trusted agent on visits to operational sites to validate the data
   collection procedures used and the integrity of data used to support the responses.
   DTRA gathered and reported data manually on the capacity analysis data calls,
   but used the DGT to respond to questions for the second data call.

   Capacity Analysis Data Call. The OSD BRAC Office sent 753 capacity
   analysis data call questions to DTRA. The DTRA BRAC trusted agent reviewed
   all 753 questions and identified 84 as applicable to DTRA. The DTRA BRAC
   trusted agent assigned DTRA Headquarters with the responsibility for collecting
   responses to 76 questions and the Defense Nuclear Weapons School with
   responsibility for 8 questions. Although we did not validate the selection process
   used by the DTRA trusted agent, we did review the DTRA responses and
   documentation provided in support of the 84 capacity analysis data call questions.
   We also reviewed the 669 questions identified as N/A to determine whether the
   N/A responses were appropriate. The results of our reviews are discussed in two
   memorandums covering the DTRA capacity analysis data call responses. Table 1
   shows which capacity analysis data call questions each site answered.




                                        8
              Table 1. Capacity Analysis Data Call Responses Reviewed
                                                    Question Number
           DTRA Site                      Answered                Not Applicable
DTRA Headquarters,                22, 84, 245, 301, 302,     1-21, 23-83, 85-96,
Fort Belvoir, Virginia            311, 313, 325, 328, 329, 99-103, 105, 108-111,
                                  347, 348, 350, 354-356,    113-142, 144-244,
                                  358, 362-367, 369,         246-300, 303-310, 312,
                                  371-373, 376, 378,         314-324, 326, 327,
                                  381-388, 393, 446-448,     330-346, 349, 351-353,
                                  460-468, 471, 478-482,     357, 359-361, 368, 370,
                                  582, 686-692, 696, 698,    374, 375, 377, 379, 380,
                                  699, 714, 723, 726, 735, 389-392, 394-445,
                                  736, 741, 744, 745, and    449-459, 469, 470,
                                  748                        472-477, 483-581,
DTRA Defense Nuclear Weapon 97, 98, 104, 106, 107,           583-685, 693-695, 697,
School, Albuquerque, New          112, 143, and 751          700-713, 715-722, 724,
Mexico                                                       725, 727-734, 737-740,
                                                             742, 743, 746, 747, 749,
                                                             750, 752, and 753


       Second Data Call. DTRA received 118 questions on the second data call. The
       DTRA trusted agent classified 27 questions as N/A to DTRA; and we reviewed
       whether N/A was the appropriate classification for each question. The DTRA
       trusted agent assigned responsibility for responding to 91 questions to DTRA
       Headquarters, DTRA operations at Albuquerque, and DTRA operations at the
       Nevada Test Site. The 91 questions included 2 COBRA (1501 and 1505),
       25 Headquarters and Support Activities JCSG military value (1904-1908,
       1911-1919, 1921, 1925-1927, 1947, 1949-1951, 1953, 1956, and 1957),
       26 Technical JCSG military value (3000-3010, 3013, and 3015-3026, and, 3027),
       20 JPAT 7 (1400-1417, 1420, and 1421), 8 Headquarters and Support Activities
       JCSG supplemental capacity (4079-4081 and 4099-4103), 6 Technical JCSG
       supplemental capacity (4277, 4279, and 4283-4286), 1 Education and Training
       JCSG supplemental capacity (4000), and 3 Medical JCSG supplemental capacity
       (4243, 4244, and 4246) questions.

       We reviewed the DTRA responses and supporting documentation for the
       91 questions. We did not validate the processes that the DTRA trusted agent used
       to select which activity would respond to each question. However, we did




                                          9
           validate that DTRA had complied with the requirement to have all stand-alone
           facilities and host installations and leased facilities answer JPAT 7 and COBRA
           data call questions. Table 2 shows which second data call questions each DTRA
           site answered.

                    Table 2. Second Data Call Responses Reviewed
                                                   Question Number
            DTRA Site                      Answered             Not Applicable
                                                    *
DTRA Headquarters,                 1400-1417, 1420,         1500, 1502-1504, 1506,
                                        *
Fort Belvoir, Virginia             1421, 1501, 1505, 1904- 1507, 1909, 1910, 1920,
                                   1908,** 1911-1919,       1922-1924, 1948, 1952,
                                   1921, 1925-1927, 1947,   1954, 1955, 3007-3009,
                                   1949-1951, 1953, 1956,   3011, 3012, 3014, 3015,
                                   1957, 3000-3006, 3010,   3027, 4000, 4072-4074,
                                   3013, 3016-3026,         4096, 4242, 4245, and
                                   4079-4081, 4099-4103,    4280-4286
                                   4243, 4244, 4246, 4277,
                                   and 4279
DTRA Technology Development 1905, 1911, 1913-1919,          1904, 1906-1910, 1912,
Directorate, Albuquerque,          1925, 1926, 1947, 1949, 1920-1924, 1927, 1948,
New Mexico                         1956, 3001-3009,         1950-1955, 1957, 3000,
                                   3013-3015, 3021, 3027,   3010-3012, 3016-3020,
                                   4000, 4079-4081, 4277,   3022-3026, 4072-4074,
                                   4279, and 4283-4286      4096, 4278, and
                                                            4280-4282
DTRA Nevada Test Site,             1400-1417, 1420, 1421,   1500, 1502-1504, 1506,
Mercury, Nevada                    1501, 1505, 3001-3006,   1507, 3000, 3007-3012,
                                   3013, 3021, 4277, and    3014-3020, 3022-3027,
                                   4279                     4278, and 4280-4286
*
    The JPAT 7 group replaced question numbers 1418 and 1419 with question numbers 1420 and 1421.
**
  We reviewed the responses for question number 1907; however, we were unable to make a determination
as to whether the responses were reasonable and accurate based on the source documents available.




                                                   10
    In addition to reviewing the second data call responses, we followed up on the
    following unresolved issues from the capacity analysis data call questions:

    84, 328, 329, 347, 354 through 356, 362 through 364, 371, 382, 383, 385, 387,
    446 through 448, 465, 480 through 482, 582, 686 through 690, 696, 699, 714,
    723, 726, 735, 736, 741, 744, 745, and 748.

    Subsequent to our visits, the JPAT 7 group requested responding activities to
    update some of their responses based upon new guidance. We did not review the
    supporting documentation for the changed responses to JPAT 7 questions.

    Scenario Specific Data Call. As of April 5, 2005, the OSD BRAC Office had
    assigned nine scenario specific data calls to DTRA. Specifically, the OSD BRAC
    Office assigned Technical JCSG scenario numbers TECH-0002, TECH-0010,
    TECH-0018, TECH-0032, TECH-0038 through 41, and Medical JCSG scenario
    number MED-0028 to DTRA. The DTRA trusted agent further assigned
    responsibility for responding to part one of Technical JCSG scenario numbers
    TECH-0002 and TECH-0018 and all of scenario numbers TECH-0010,
    TECH-0032, TECH-0038 through TECH-0041, and Medical JCSG scenario
    number MED-0028 to DTRA Headquarters. The DTRA Test Division in
    Albuquerque, New Mexico assumed responsibility for part four of Technical
    JCSG scenario numbers TECH-0002 and TECH-0018 (parts two and three did not
    apply to operations or functions within DTRA). We evaluated whether the
    responses to the scenario data call provided by DTRA Headquarters and the
    DTRA Test Division were reasonable and adequately supported.

    We performed this audit from February 2004 through April 2005 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not test the accuracy of the
    computer-processed data used to support an answer to a data call question
    because of time constraints. Potential inaccuracies in the data could impact the
    results; however, the DTRA Business Director certified the BRAC data as
    accurate and complete to the best of his knowledge and belief. Although we did
    not review DTRA’s use of the DGT, not reviewing the use of the DGT did not
    adversely impact our overall opinion.
    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Federal Real Property and DoD Support Infrastructure
    Management high-risk areas.


Management Control Program Review
    We evaluated the DTRA management controls for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed procedures
    DTRA used to develop, submit, and document its data call responses. In addition,
    we reviewed the controls implemented to safeguard against the disclosure of
    DTRA BRAC data before responses were forwarded to the OSD BRAC Office.

                                        11
     As a result, we determined that management controls were adequate as they
     applied to the audit objective. (See finding for specific details.) We did not
     review the DTRA management control program because its provisions were not
     deemed applicable to the one-time data collection process.

Prior Coverage
     The DoD Inspector General has issued three site memorandums discussing the
     DTRA BRAC 2005 data call submissions and internal control processes.

Site Memorandums

     DoD IG Memorandum, “Audit on the Second Data Call Submission of the
     Defense Threat Reduction Agency for Base Realignment and Closure 2005,”
     November 29, 2004
     DoD IG Memorandum, “Audit on the Consolidated Capacity Analysis Data Call
     Submission from Defense Threat Reduction Agency for Base Realignment and
     Closure 2005,” May 13, 2004

     DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
     from Defense Nuclear Weapons School to Defense Threat Reduction Agency for
     Base Realignment and Closure 2005,” March 25, 2004




                                        12
Appendix B. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)


Other Defense Organization
Director, Defense Threat Reduction Agency


Non-Defense Federal Organization
Government Accountability Office ∗




∗
    Only Government Accountability Office personnel involved in the BRAC process are to receive the
    report.




                                                    13
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert F. Prinzbach II
Dennis L. Conway
Hugh G. Cherry
Corrisse L. Carlton
Ronald L. Rembold
Nicholas Drotar
Meredith Johnson
